                                                                 Issue Date
                                                                          January 26, 2012
                                                                 Audit Report Number
                                                                              2012-LA-1004




TO:        Charles S. Coulter, Deputy Assistant Secretary for Single Family Housing, HU

           Dane Narode, Associate General Counsel for Program Enforcement, CACC


FROM:      Tanya E. Schulze, Regional Inspector General for Audit, Region IX, 9DGA

SUBJECT: MetLife Bank’s Scottsdale, AZ, Branch Office Did Not Follow FHA-Insured
         Loan Underwriting and Quality Control Requirements

                                  HIGHLIGHTS

 What We Audited and Why

             We audited the Federal Housing Administration (FHA)-insured loan process at
             MetLife Bank’s (lender) branch in Scottsdale, AZ, to determine whether the
             lender underwrote FHA-insured loans and implemented a quality control plan
             in accordance with U.S. Department of Housing and Urban Development
             (HUD) requirements. We selected the lender because it had an FHA default
             rate of 7.41 percent for loans underwritten in Arizona between April 1, 2009,
             and March 31, 2011, more than double the average for Arizona (3.47 percent).
             The majority of the lender’s loans that were in default for Arizona were
             underwritten through its Scottsdale branch.

 What We Found


             The lender did not follow HUD regulations and requirements when
             underwriting FHA-insured loans. Specifically, 24 of the 30 loans reviewed
             contained underwriting deficiencies, with 14 of the 24 containing significant
           underwriting deficiencies that impacted the insurability of the loan. In
           addition, the lender did not follow HUD’s quality control requirements when
           performing site reviews and reviewing loan files.

What We Recommend


           We recommend that the Deputy Assistant Secretary for Single Family Housing
           require the lender to (1) indemnify HUD for 12 FHA-insured loans with an
           estimated potential loss of more than $1 million, (2) reimburse the FHA
           insurance fund $101,555 for actual losses on 2 loans, and (3) support or repay
           the FHA insurance fund $16,490 for claims paid as of September 30, 2011, on
           2 loans. In addition, we recommend that HUD’s Associate General Counsel for
           Program Enforcement determine legal sufficiency and if legally sufficient, pursue
           remedies under the Program Fraud Civil Remedies Act (31 U.S.C. (United States
           Code) 3801-3812), civil money penalties (24 CFR (Code of Federal Regulations)
           30.35), or both against the lender, its principals, or both for incorrectly certifying
           to the integrity of the data or that due diligence was not exercised during the
           underwriting of 14 loans that resulted in actual losses of $101,555 on 2 loans,
           partial claims of $16,490 on 2 loans, and potential losses of more than $1 million
           on 12 loans for a total loss of more than $1.2 million, which could result in
           affirmative civil enforcement action of approximately $2.5 million.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-4.
           Please furnish us copies of any correspondence or directives issued because of
           the audit.

Auditee’s Response


           We provided the lender a discussion draft report on December 14, 2011, and
           held an exit conference with lender officials on December 22, 2011. The
           lender provided written comments on January 9, 2012. It generally disagreed
           with the report.

           The complete text of the lender’s response, along with our evaluation of that
           response, can be found in appendix B of this report. The lender provided
           additional documentation with their response. We did not include this in the
           report because it was too voluminous; however, it is available upon request.




                                             2
                            TABLE OF CONTENTS

Background and Objective                                                        4

Results of Audit
Finding 1: The Lender Did Not Underwrite FHA-Insured Loans in Accordance With   5
           HUD-FHA Requirements

Finding 2: The Lender Did Not Follow HUD’s Quality Control Requirements         11

Scope and Methodology                                                           13

Internal Controls                                                               15

Appendixes

      A.   Schedule of Questioned Costs And Funds To Be Put to Better Use       17
      B.   Auditee Comments and OIG’s Evaluation                                19
      C.   Loan Details for Significant Underwriting Deficiencies               60
      D.   Criteria                                                             61
      E.   Narrative Loan Summaries for Significant Underwriting Deficiencies   65




                                            3
                         BACKGROUND AND OBJECTIVE

The Federal Housing Administration (FHA) created by Congress in 1934 is the largest
mortgage insurer in the world. The homeowners pay into the FHA insurance fund through
mortgage insurance. The U.S. Department of Housing and Urban Development (HUD) uses
these funds to operate the FHA insurance program, providing lenders with protection against
losses as the result of homeowners defaulting on home mortgages. In fiscal year 2010, FHA
insured more than 1.75 million single-family mortgages totaling more than $316 billion.1

Various sanctions exist that allow the HUD Homeownership Centers and FHA the flexibility
to respond appropriately to any noncompliance action by a direct endorsement lender or other
program participant. HUD Homeownership Centers insure single family FHA mortgages,
assure FHA mortgage quality, help homeowners & homebuyers through effective housing
counseling, & oversee the selling of HUD homes. The Homeownership Centers objectives
include (1) reducing the risk of defaults and claims to FHA, (2) improve lender performance,
and/or (3) remove non-complying lenders from the program. The Homeownership Centers
and the Mortgagee Review Board may impose the following sanctions: lender probation,
withdrawal of direct endorsement status, withdrawal of FHA approval, indemnification
agreements, civil money penalties, and sanctions against individual program participants.

MetLife Bank (lender) is a supervised lender 2 approved April 5, 2007, to originate FHA loans.
The lender originates loans under the lender insurance program, which allows lenders to self-
insure FHA loans and submit only those case binders (paper or electronic) required for review
by HUD. The lender underwrites loans through MetLife Home Loans, which is a division of
MetLife Bank. The lender’s home office is at 334 Madison Avenue, Convent Station, NJ, and
it has 237 FHA-approved active branches 3 in all 50 States. Between April 1, 2009, and March
31, 2011, the lender underwrote 65,925 FHA-insured loans.

The Scottsdale branch is one of the lender’s regional wholesale branches. The wholesale
branches coordinate the underwriting, and closing, and funding of mortgage loans originated
by third-party mortgage brokers. The Scottsdale branch serviced loans for six States;
however, the lender closed the branch after the audit started.

Our objective was to determine whether the lender underwrote FHA-insured loans and
implemented a quality control plan in accordance with HUD requirements.




1
  HUD monthly report to the FHA Commissioner: FHA portfolio analysis data as of September 2011.
2
  A supervised lender is a HUD-FHA-approved financial institution that is a member of the Federal Reserve
System or an institution the accounts of which are insured by the Federal Deposit Insurance Corporation or the
National Credit Union Administration.
3
  According to Neighborhood Watch as of October 28, 2011


                                                       4
                                        RESULTS OF AUDIT

Finding 1: The Lender Did Not Underwrite FHA-Insured Loans in
           Accordance With HUD-FHA Requirements
The lender did not follow HUD-FHA regulations and requirements for underwriting FHA-
insured loans. Specifically, 24 of the 30 loans reviewed contained underwriting deficiencies,
with 14 4 containing significant underwriting deficiencies that impacted the insurability of the
loan. This noncompliance occurred because the underwriters did not exercise sound judgment
and due diligence in underwriting FHA-insured loans. As a result, the lender caused HUD to
pay more than $118,000 in claims and incur losses of more than $101,000. In addition, the
FHA portfolio remained at risk for losses of approximately $1.1 million for loans that did not
meet HUD requirements.


    14 Loan Files Contained
    Significant Underwriting
    Deficiencies


                    The detailed review of 30 FHA-insured loans identified 14 with significant
                    underwriting deficiencies that included inadequate determination and
                    documentation of borrower income, credit, and assets. HUD Handbook 4155.1
                    provides the requirements for underwriting FHA-insured loans including the
                    evaluation of the borrower’s capacity to repay the loan (income), credit history,
                    and assets available to close the loan (see appendix D). The lender
                    inappropriately approved 14 loans based on an inadequate determination and
                    documentation of these factors.

                    The table below lists the 30 FHA loan numbers reviewed and the deficient
                    areas associated with each loan. The table also identifies the 14 loans for
                    which we concluded that the underwriting was significantly deficient and,
                    therefore, warranted indemnification. Appendix E provides underwriting
                    details for each FHA loan considered to have significant underwriting
                    deficiencies.




4
    A deficiency is considered significant when it affects the loan approval decision.


                                                           5
                      Underwriting deficiencies      No        Technical   Significant
 FHA loan
                   Income Credit Assets Other underwriting underwriting underwriting
  number
                                                 deficiencies deficiencies deficiencies
022-2044367                                                       
022-2050283                                                                   
022-2217731                                                                    
023-3195204                                                       
023-3289796                                                     
023-3302437                                                                  
022-3312197                                                                   
023-3321334                                                                   
023-3324330                                                       
023-3376945                                                       
023-3380559                                                                   
023-3402161                                           
023-3437647                                           
023-3485534                                                                   
023-3515200                                                                   
023-3515994                                                                  
023-3551691                                                                  
023-3591501                                                      
023-3633965                                                       
023-3789597                                                                   
023-3795557                                           
023-3877294                                           
023-3921398                                           
023-3928685                                                       
023-3948891                                                                   
023-3964148                                           
023-4016633                                                       
023-4023605                                                                    
023-4188353                                                       
023-4362539                                                                   
                     10     17       13        2      6            10           14

                    Income
                    Five 5 of the fourteen loans with significant underwriting deficiencies included
                    the lender’s improperly calculating monthly income and not verifying the
                    employment history for the most recent 2 full years.

                    For example, for FHA loan number 022-2050283, the borrower was self-
                    employed, requiring the lender to calculate the monthly income using the
                    average from the previous 2 years by using the adjusted gross income from the

  5
      Loans: 022-2050283, 022-2217731, 023-3302437, 023-3515994, and 023-3551691


                                                      6
               tax return as stated in HUD Handbook 4155.1, REV-5, paragraph 2-9C.
               However, the lender instead used the net business profit from the tax return,
               which did not include the one-half of self-employment tax. As a result, the
               borrower’s monthly income was overstated by $547, and the total fixed
               payment-to-income ratio increased from 47.95 to 51.59 percent.

               Credit
               Twelve 6 of the fourteen loans with significant underwriting deficiencies
               included improperly excluding the net rental loss in the liabilities and not
               obtaining a credit report for a nonpurchasing spouse.

               For example, for FHA loan number 023-3380559, the lender calculated the net
               rental loss on the borrower’s application but did not include the amount ($217)
               in the automated underwriting system as a recurring debt. In addition, the
               rental agreement was not valid because it was not signed by any of the parties
               involved as required. Also, the check for the first month’s rent and security
               deposit was questionable because it predated the rental agreement by almost 1
               year (the check was dated May 18, 2008, and the rental agreement was for
               April 27, 2009, to May 30, 2010). This check also predated the borrower’s
               move to Arizona by more than 2 months. As a result, the total fixed payment-
               to-income ratio increased from 50.53 to 85.46 percent.

               Assets
               Ten 7 of the fourteen loans with significant underwriting deficiencies included
               the lender’s improperly calculating assets, not properly documenting retirement
               funds used as qualifying assets, and not properly documenting the transfer of
               gifts. In addition, the lender did not ensure that a borrower made the required
               downpayment of 3.5 percent.

               For example, for FHA loan number 023-3485534, the lender overstated the
               borrower’s assets by $7,473 because it did not properly document a retirement
               account that was used as a qualifying asset. Specifically, the lender did not
               document the terms and conditions for withdrawal or borrowing, indicating
               that the borrower was eligible for withdrawals, as required by HUD Handbook
               4155.1, paragraph 5B(3)(a). As a result, the lender did not verify that the
               borrower had sufficient funds to close the loan. The lender only properly
               verified $2,381 in assets, $1,539 short of the funds required to close of $3,920.




6
  Loans: 022-2050283, 023-3302437, 022-3312197, 023-3321334, 023-3380559, 023-3485534, 023-3515200,
023-3515994, 023-3551691, 023-3789597, 023-3948891, and 023-4362539
7
  Loans: 022-3312197, 023-3321334, 023-3380559, 023-3485534, 023-3515200, 023-3515994, 023-3551691,
023-3789597, 023-3948891, and 023-4362539


                                                 7
    Ten Loan Files Also Contained
    Underwriting Deficiencies


                In addition to the 14 loans that contained significant underwriting deficiencies,
                10 8 also contained technical underwriting deficiencies that violated HUD-FHA
                requirements. The technical underwriting deficiencies were minor
                underwriting deficiencies that, even if corrected, would not result in a
                significant increase in mortgage risk and did not impact the insurability of the
                loan. We did not recommend indemnification or reimbursement for loans that
                contained only technical underwriting deficiencies. Examples of these
                technical underwriting deficiencies include loan files that did not contain the
                deposit slips for gifts as required by HUD Handbook 4155.1, paragraph
                5B(5)(b), and explanation of credit inquiries that were within 90 days of the
                completed credit report as required by HUD Handbook 4155.1, paragraph
                4C(2)(c). The table above identifies the 10 loans that contained technical
                underwriting deficiencies.

    Lack of Due Diligence
    Increased Risk of Loss to the
    FHA Insurance Fund

                Because the lender did not follow HUD-FHA requirements when underwriting,
                it inappropriately approved 14 loans that had significant underwriting
                deficiencies. The lender did not exercise both sound judgment and due
                diligence when it submitted these loans for FHA insurance. The lender had
                established underwriting policies and procedures and was aware of HUD-FHA
                requirements; however, the lender’s underwriters did not follow these when it
                approved the 14 loans that had significant underwriting deficiencies. The
                underwriters incorrectly certified to the integrity of the data used to determine
                the quality of the loan for 12 automated loans and incorrectly certified that due
                diligence was used in underwriting 2 manually underwritten loans. 24 CFR
                203.255 requires a direct endorsement lender to certify that the proposed loan
                complies with HUD underwriting requirements.

                Also, the lender did not follow HUD’s quality control requirements, which
                contributed to the underwriting deficiencies (see finding 2). Specifically, if the
                quality control reviews had been performed in a timely manner, the lender may
                have corrected systemic underwriting deficiencies. As a result, the FHA
                insurance fund was at increased risk for losses on 12 9 loans and realized losses


8
  Loans with technical underwriting deficiencies include 022-2044367, 023-3195204, 023-3289796, 023-
3324330, 023-3376945, 023-3591501, 023-3633965, 023-3928685, 023-401633, and 023-4188353.
9
  Loans with potential losses include 022-2050283, 022-2217731, 023-3302437, 023-3312197, 023-3321334,
023-3515200, 023-3515994, 023-3551691, 023-3789597, 023-3948891, 023-4023605, and 023-4362539.


                                                    8
                  for 2 10 loans. The losses resulted when the properties that secured the two
                  loans were sold and the insurance claims and other expenses incurred by HUD
                  exceeded the sales proceeds.

     Conclusion

                  The lender’s noncompliance with HUD-FHA requirements placed the FHA
                  insurance fund at additional risk for losses. There were 14 loans that did not
                  meet the requirements for FHA insurance. Twelve of these loans had a total
                  unpaid mortgage balance of more than $1.8 million with an estimated loss to
                  HUD of more than $1 million. 11 In addition, HUD paid claims of $118,045 12
                  on four loans with an actual loss of $101,555 for two of the loans (see
                  appendixes A and C).


     Recommendations


                  We recommend that the Deputy Assistant Secretary for Single Family Housing
                  require MetLife Bank to

                  1A.    Indemnify HUD against losses for the 12 FHA-insured loans with
                         significant underwriting deficiencies in the amount of $1,858,937. The
                         estimated loss to HUD is $1,096,774.

                  1B.    Reimburse the FHA insurance fund for the $101,555 in actual losses
                         incurred from two loans 13 with significant underwriting deficiencies.

                  1C.    Support or repay the FHA insurance fund $16,490 for the partial claims
                         paid as of September 30, 2011, on two loans 14 with significant
                         underwriting deficiencies. If HUD has taken title to the property or
                         sold it rather than seeking repayment of the partial claims paid, the
                         repayment amount should be adjusted to the amount of FHA’s loss. If
                         the property is later conveyed to HUD and sold, the loss amount should
                         be adjusted to reflect any amounts repaid pursuant to this
                         recommendation.



10
   Loans with realized losses include 023-3380559 and 023-3485534.
11
   This amount was calculated based on 59 percent of the unpaid mortgage balances (according to Neighborhood
Watch as of September 30, 2011). The 59 percent indemnification rate is based on HUD’s Single Family
Acquired Asset Management System’s “case management profit and loss by acquisition” computation for fiscal
year 2010 based on actual sales.
12
   According to Neighborhood Watch as of September 30, 2011
13
   023-3380559 and 023-3485534
14
   023-3312197 and 023-3321334


                                                     9
                  In addition, we recommend that HUD’s Associate General Counsel for
                  Program Enforcement

                  1D.      Determine legal sufficiency and if legally sufficient, pursue remedies
                           under the Program Fraud Civil Remedies Act (31 U.S.C. (United States
                           Code) 3801-3812), civil money penalties (24 CFR (Code of Federal
                           Regulations) 30.35), or both against the lender, its principals, or both
                           for incorrectly certifying to the integrity of the data or that due
                           diligence was exercised during the underwriting of 14 loans that
                           resulted in actual losses of $101,555 on two loans, partial claims of
                           $16,490 on two loans, and potential losses of $1,096,774 on 12 loans
                           for a total loss of $1,214,819, which could result in affirmative civil
                           enforcement action of approximately $2,534,638. 15




15
  Double damages for actual loss amounts related to 2 loans, partial claims on 2 loans, and potential losses
related to 12 loans ($118,045 + $1,096,774 = $1,214,819) plus fines of $7,500 each for the 14 loans with
material underwriting deficiencies ($1,214,819 x 2) + ($7,500 x 14) = $2,534,638


                                                       10
Finding 2: The Lender Did Not Follow HUD’s Quality Control
           Requirements
The lender did not follow HUD’s quality control requirements when performing site reviews
and reviewing loan origination files. It was notified of these issues before our audit started
through its internal audit report, dated April 2011. We determined that the lender disregarded
HUD’s quality control requirements, allowing branch reorganizations and insufficient staffing
levels to impact the site reviews and quality control reviews. As a result, the FHA insurance
fund was placed at an increased risk of loss.



 Site Reviews Were Not
 Performed in 2010


                 According to the lender, a contractor conducted site reviews of all of its
                 branches between October 2008 and June 2009; however, none was performed
                 in 2010. Although annual visits are not required for every branch, the lender
                 did not perform an analysis to determine whether any of its branches had high
                 early default rates, sudden increases in volume, or past problems. These
                 specific issues would require an annual visit as stated in section 3 of the
                 lender’s own quality control policy and HUD Handbook 4060.1, REV-2
                 section 7-3G. In response to the internal audit report, lender officials stated
                 that the site reviews were not performed in 2010 because of branch
                 reorganizations. However, according to the lender, several branch site reviews
                 were conducted during the audit, and a site review plan was being developed.

     Quality Control Reviews Were
     Not Performed in a Timely
     Manner

                 HUD Handbook 4060.1, REV-2, section 7-6A, requires lenders to review loans
                 routinely selected for quality control review within 90 days from the end of the
                 month in which the loan closed. The purpose of the requirement is to ensure
                 that the lender identifies problems not previously identified before loan
                 closing. We reviewed 15 quality control files and determined that 14 16 were
                 completed approximately 11 months after the month in which the FHA-insured
                 loan closed. In response to the internal audit report, lender officials stated that

16
  Seven of the fourteen quality controls files that were not performed in a timely manner were part of the
underwriting sample in finding 1: 023-3289796, 023-3321334, 023-3402161, 023-3437647, 023-3795557, 023-
3877294, and 023-3921398.


                                                    11
             the quality control reviews were not performed within the required timeframes
             because of insufficient staffing levels. According to the lender, additional staff
             was hired to complete the quality control reviews within the required
             timeframe.

             Nine of the fourteen quality control files were early payment defaults. HUD
             regulations do not indicate a timeframe for the completion of early payment
             default reviews; however, HUD Handbook 4060.1, REV-2, section 7-2, states
             that one of the basic overriding goals of quality control is to ensure swift and
             appropriate corrective action. Therefore, prudence would dictate that these
             loans be reviewed shortly after being identified as early payment defaults.

Conclusion



             The lender did not perform site reviews and review loan files in accordance
             with HUD’s requirements. This condition occurred because the lender
             disregarded HUD’s quality control review requirements. As a result, the FHA
             insurance fund was placed at an increased risk of loss because the deficient
             quality control reviews may have prevented correction of systemic
             underwriting deficiencies that contributed to significant deficiencies identified
             in 14 of 30 loans reviewed (see finding 1). This report does not include any
             recommendations for this finding because the lender closed its forward home
             loan business on January 10, 2012.




                                             12
                            SCOPE AND METHODOLOGY

Our audit period covered loans with beginning amortization dates from April 1, 2009, to
March 31, 2011. We selected the lender’s Scottsdale branch office (2449201022) because
approximately 82 percent of the lender’s loans that were in default for Arizona were
underwritten through this branch. We conducted our fieldwork of the Scottsdale branch office
between May and October 2011.

We used Neighborhood Watch, HUD’s online information system for FHA-insured loans, to
identify all loans underwritten by the lender and its branches in Arizona. During our audit
period, the lender’s Scottsdale branch office underwrote 3,659 FHA-insured loans in Arizona,
with a total mortgage balance of more than $611 million. We selected a sample of 30 FHA-
insured loans selected nonstatistically based on the following factors:

          •   Loans that were seriously delinquent or had claims (18 loans),

          •   Loans with loan-to-value ratios over the maximum limit 17 (6 loans), and

          •   Loans delinquent in the first 6 months (6 loans).

To perform our quality control file review, we requested a listing from the lender of all quality
control reviews performed of loans underwritten by the Scottsdale branch office during our
audit period. However, the lender had only completed quality control reviews for April 2009
to November 2010. There were a total of 335 quality control reviews of FHA-insured loans
during this period. We selected a nonstatistical sample of 15 quality control reviews to
examine. We selected the quality control reviews that were part of our audit sample for the
review of the lender’s underwriting process. This process resulted in six quality control
reviews. We then selected nine quality control reviews based on auditor judgment. Five were
randomly selected from the most recent completed month (November 2010) and four were
randomly selected based on if a significant finding was identified during the lender’s quality
control review.

To accomplish our objective, we

          •   Reviewed HUD regulations and reference materials related to single-family
              requirements,

          •   Reviewed 30 of the lender’s FHA-insured loan files,

          •   Interviewed appropriate management and staff,


17
  The maximum loan-to-value ratio is 96.5 percent for proposed/existing construction as of January 1, 2009.
Prior to this date, the maximum loan-to-value ratios was 97.15 percent for States with average closing costs at or
below 2.1 percent of the sales price and for properties with values/sales price in excess of $125,000.


                                                       13
            •   Reviewed the quality control plan,

            •   Reviewed 15 of the lender’s quality control reviews,

            •   Interviewed borrowers when available, and

            •   Performed employment reverifications.

We used the source documents in the loan origination files to determine the income,
employment history, assets, and liabilities for borrower(s). For the loans underwritten by an
automated underwriting system, we reviewed the FHA and lender loan files to determine
whether they contained the documentation to support the integrity and accuracy of the data
used by the automated underwriting system to recommend approval of the loan. For the
manually underwritten loans, we reviewed the loan documents to determine whether they
supported the underwriting decision and complied with HUD Handbook 4155.1.

We used the data maintained by HUD in Neighborhood Watch to obtain the unpaid mortgage
balances and claims paid for each of the loans (as of September 30, 2011). HUD paid claims
on four of the loans 18 that we determined had significant underwriting deficiencies and
incurred actual losses on two those loans. 19

We also used data maintained by HUD in its Neighborhood Watch system to obtain
background information and to identify the universe of loans. We did not rely on the data to
reach our conclusions; therefore, we did not assess the reliability of the data.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




18
     Loans with claims paid: 023-3312197, 023-3321334, 023-3380559, and 023-3485534
19
     Loans with actual losses: 023-3380559 and 023-3485534


                                                    14
                             INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s
mission, goals, and objectives with regard to

        •   Effectiveness and efficiency of operations,

        •   Reliability of financial reporting, and

        •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as
the systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objective:

                  •   Policies and procedures intended to ensure that the lender underwrites
                      (approves) FHA-insured loans in accordance with HUD-FHA
                      requirements (finding 1).

                  •   Policies and procedures intended to ensure that the lender implements a
                      quality control program that complies with HUD’s requirements
                      (finding 2).

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control
               does not allow management or employees, in the normal course of performing
               their assigned functions, the reasonable opportunity to prevent, detect, or
               correct (1) impairments to effectiveness or efficiency of operations, (2)
               misstatements in financial or performance information, or (3) violations of
               laws and regulations on a timely basis.




                                               15
Significant Deficiencies


             Based on our review, we believe that the following items are significant
             deficiencies:

                •   The lender did not have adequate controls to reasonably ensure that
                    loans were underwritten in accordance with HUD-FHA requirements
                    (finding 1).

                •   The lender did not have adequate controls to ensure that its quality
                    control program complied with HUD’s quality control requirements
                    (finding 2).




                                            16
                                        APPENDIXES

Appendix A

     SCHEDULE OF QUESTIONED COSTS AND FUNDS TO BE
                  PUT TO BETTER USE

           Recommendation            Ineligible 1/      Unsupported 2     Funds to be put to
                  number                                                        better use 3
                          1A                                                     $1,096,774
                          1B            $101,555
                          1C                                   $16,490


1/        Ineligible costs are costs charged to a HUD-financed or HUD-insured program or
          activity that the auditor believes are not allowed by law; contract; or Federal, State, or
          local policies or regulations. The ineligible costs are HUD’s actual losses for two
          loans 20 that had significant underwriting deficiencies (see appendix C). The losses
          resulted when the properties that secured these two loans were sold and the insurance
          claims and other expenses incurred by HUD exceeded the sales proceeds.

2/        Unsupported costs are those costs charged to a HUD-financed or HUD-insured
          program or activity when we cannot determine eligibility at the time of the audit.
          Unsupported costs require a decision by HUD program officials. This decision, in
          addition to obtaining supporting documentation, might involve a legal interpretation or
          clarification of departmental policies and procedures. The unsupported costs are the
          partial claims paid by HUD for two loans 21 that had significant underwriting
          deficiencies (see appendix C).

3/        Recommendations that funds be put to better use are estimates of amounts that could
          be used more efficiently if an Office of Inspector General (OIG) recommendation is
          implemented. These amounts include reductions in outlays, deobligation of funds,
          withdrawal of interest, costs not incurred by implementing recommended
          improvements, avoidance of unnecessary expenditures noted in preaward reviews, and
          any other savings that are specifically identified. If HUD implements our
          recommendations to indemnify loans not approved in accordance with HUD-FHA
          requirements, it will reduce FHA’s risk of loss to the insurance fund. The amount
          noted reflects HUD’s calculation that FHA loses an average of 59 percent of the
          unpaid principal balance when it sells a foreclosed-upon property (see the estimated
          loss to HUD in appendix C). The 59 percent loss rate is based on HUD’s Single


20
     023-3380559 and 023-3485534
21
     023-3312197 and 023-3321334


                                                  17
Family Acquired Asset Management System’s “case management profit and loss by
acquisition” computation for fiscal year 2010 based on actual sales.




                                   18
Appendix B

       AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                        19
Comment 1




            20
Comment 2




Comment 3




            21
Comment 4




Comment 5




            22
Comment 6




            23
Comment 7



Comment 8




            24
Comment 9




Comment 10




Comment 11




             25
Comment 8




Comment 9


Comment 12




Comment 13




             26
Comment 14




Comment 15



Comment 8




             27
Comment 16


Comment 9


Comment 17


Comment 18




Comment 8




             28
Comment 9



Comment 19


Comment 20




Comment 21




             29
Comment 22




Comment 23




Comment 24




             30
Comment 25




             31
Comment 26




Comment 27




             32
Comment 28




             33
Comment 29




Comment 9



Comment 19




             34
Comment 20




Comment 30




             35
Comment 31




Comment 30



Comment 32




             36
Comment 33




             37
Comment 34




Comment 35




             38
Comment 36




             39
Comment 37




             40
Comment 38




             41
Comment 39




Comment 40




             42
Comment 41




Comment 42




             43
Comment 43




             44
Comment 44




Comment 43
Comment 44




Comment 45




             45
Comment 46




             46
47
Comment 47




             48
49
                        OIG Evaluation of Auditee Comments

Comment 1   The lender requested an opportunity to respond to additional substantive
            comments made by the OIG. The purpose of presenting the lender’s comments
            to the discussion draft report and the OIG’s evaluation of the lender’s
            comments is to factually present the lender’s position and ensure accuracy and
            full disclosure. The lender will have the opportunity to provide further
            comments and supporting documentation to HUD during the audit resolution
            process.

Comment 2   The lender commented that the loans cited in the report were from a single
            branch office which has been closed, resolving any issues. The background
            section of the report does recognize that the branch closed after the start of the
            audit; however, this did not resolve the reported violations nor did it remove
            the risk of losses that the significantly deficient loans pose to the FHA
            insurance fund. Similarly, the lender’s plans to exit the mortgage origination
            business does not relieve it of any violations identified during our audit.

Comment 3   Although 10 loans contained only technical deficiencies, they still indicate
            problems in underwriting. Combined, we identified 24 loans with underwriting
            deficiencies (both technical and significant), or 80 percent of our total sample.
            Our sample of 30 loans was selected based on loans that were seriously
            delinquent or had claims, had loan-to-value ratios over 96.5 percent (the
            maximum limit), and were delinquent in the first six months.

Comment 4   We disagree with the lender’s assertion that the report is in variance with the
            facts and the violations do not affect the insurability of the questioned loans.
            Our findings were based on interviews, detailed analysis, and thorough
            comparison to HUD rules and regulations. The questioned loans did not meet
            the threshold for insurability. As noted in the finding, we did not state the
            cause of the noncompliance was due to the lenders intentional disregard of
            HUD guidelines or knowingly misrepresenting information. We attributed the
            noncompliance to the fact that the underwriters did not exercise sound
            judgment and due diligence in underwriting FHA-insured loans.

Comment 5   The lender requested the OIG to omit the technical underwriting deficiencies
            from Appendix E or to expressly identify them as minor allegations. The
            technical underwriting deficiencies are included to further illustrate the lack of
            quality control and present each questioned loan in its entirety. We did not
            revise the report as the introductory paragraph for each loan narrative clearly
            identifies the deficiencies the OIG is using as the basis for indemnification.

Comment 6   We disagree with the lender’s response that it was appropriate to use the same
            two-year averaging method approved and required for other forms of variable
            income because the borrower’s base income was variable. HUD Handbook
            4155.1, paragraph 4D(2)(g) applies to commission income. In this case the



                                            50
              borrower received both an hourly base income, which should be treated as
              regular income, and tips for his second job, which would be treated as bonus or
              commission income. The OIG determined it was more appropriate to calculate
              the borrower’s monthly income based on the year-to-date pay from the most
              recent pay stub in the loan file and not include the tips because the lender did
              not document a two year history of the tips as is required with other forms of
              variable income. For overtime and bonus income, HUD Handbook 4155.1,
              paragraph 4D(2)(c) states the lender must establish and document an earnings
              trend for overtime and bonus income. For commission income, HUD
              Handbook 4155.1, paragraph 4D(2)(g) states it must be averaged over the
              previous two years and that if it shows a decrease from one year to the next
              then significant compensating factors are required before a borrower can be
              approved for the loan. Also, as stated in the report, the average monthly
              income was significantly different in the previous two years. The average
              monthly income for 2008 was $531 while the average monthly income for
              2009 almost doubled ($1,035).

Comment 7     The lender incorrectly used HUD Handbook 4155.1, paragraph 4C(6)(b) to
              state taxes should not be subtracted from gross income. This specific provision
              applies to the borrower’s debt and liabilities analysis and does not pertain to
              discussion of self employment income.

Comment 8     We disagree with the lender’s method of computing self-employment income
              in that one-half of self-employment tax should not be excluded when
              calculating the borrower’s self-employment income. HUD Handbook 4155.1,
              paragraph 4D(5)(a) states that for self-employed borrowers, the adjusted gross
              income must be either increased or decreased based on the lender’s analysis of
              the individual tax return and any related tax schedules. HUD Handbook
              4155.1, paragraph 4D(5)(b) details items from the individual tax return that
              may be added or must be subtracted from the adjusted gross income. On tax
              forms, one-half of self-employment tax is subtracted from business income to
              arrive at adjusted gross income. The handbook does not state that the one-half
              of self-employment tax may be added back to the adjusted gross income.

Comment 9     Exceeding the qualifying ratios, especially the total debt-to-income ratio,
              indicates a greater underwriting risk and must be analyzed carefully. HUD
              Handbook 4155.1, paragraph 4F(1)(b) states that simply establishing that a loan
              transaction meets minimal standards does not necessarily constitute prudent
              underwriting.

Comment 10 We disagree with the lender’s assertion that the compensating factors listed
           were sufficient because they are either not valid or were not verified. HUD
           Handbook 4155.1, paragraph 4F(3)(b) does not state that excellent credit and
           nontaxable reimbursements are compensating factors that may be used to
           justify approval of mortgage loans that contain excessive qualifying ratios.
           Also, the decrease in net housing payment was not verified. The borrower



                                             51
              provided the amount of the present housing payment on the uniform residential
              loan application; however, this amount was not verified by the lender.

Comment 11 We disagree that the lender complied with HUD requirements with respect to
           FHA case number 023-4023605. Therefore, the loan will remain in the report
           as significantly deficient and indemnifiable.

Comment 12 We disagree with the lender’s assertion that the compensating factors were
           sufficient as they were not valid. Excellent credit is not listed as a valid
           compensating factor according to HUD Handbook 4155.1, paragraph 4F(3)(b).
           Further, a history of timely mortgage payments was not a valid compensating
           factor because the proposed monthly housing payment for the new mortgage of
           $1,835 was much higher than the present housing payment of $814. To be a
           valid compensating factor, HUD Handbook 4155.1, paragraph 4F(3)(b) states
           that the borrower should have successfully demonstrated the ability to pay
           housing expenses greater than or equal to the proposed monthly housing
           expenses for the new mortgage over the past 12-24 months.

Comment 13 We disagree that the lender complied with HUD requirements with respect to
           FHA case number 022-2050283. Therefore, the loan remains as in the report
           as significantly deficient.

Comment 14 We disagree with the lender’s response that it was appropriate to use the same
           two-year averaging method approved and required for other forms of variable
           income because the borrower’s base income showed a continual decline. The
           OIG determined it was more appropriate to calculate the borrower’s monthly
           income based on the year-to-date pay from the most recent pay stub in the loan
           file, which covered approximately five months, because, as stated in the report,
           the average monthly income had decreased each year, illustrating a declining
           earnings trend. The monthly income calculated by the lender was $1,496,
           $1,337, and $1,296 for 2007, 2008, and 2009, respectively.

Comment 15 The lender incorrectly referenced HUD Handbook 4155.1, paragraph 4D(2)(c)
           and (g) when making the case for averaging income over two years for
           borrowers with variable income. The cited reference applies to overtime,
           bonus, and/or commission income. In this instance, the borrower’s income is
           not derived from overtime, bonus, or commission income. Therefore, the cited
           reference does not apply and the report remains unchanged.

Comment 16 In addition to being calculated incorrectly, the lender’s response did not
           address that the borrower’s self-employment income should have been
           questioned because several issues were identified as noted in Appendix E on
           page 31 of the report.

Comment 17 We disagree with the lender’s assertion that the compensating factors listed
           were sufficient as they were not valid. The borrower’s minimal use of credit



                                            52
              does not fully comply with HUD Handbook 4155.1, paragraph 4F(3)(b)
              because it states that the borrower has demonstrated an ability to accumulate
              savings and has a conservative attitude toward using credit. The loan file does
              document a minimal use of credit but does not document that the borrower has
              to ability to accumulate savings. Even with the borrower’s conservative
              attitude toward using credit, the borrower had less than $2,000 in their bank
              account. The lender’s response noted that there was only a slight increase in
              the borrower’s housing payments; however, this is not accurate as it increased
              by approximately 14 percent, from $1,250 to $1,424. Lastly, the amount of the
              present housing payment of $1,250 on the uniform residential loan application
              was not verified by the lender.

Comment 18 We disagree that the lender complied with HUD requirements with respect to
           FHA case number 023-3515994. Therefore, the loan remains in the report as
           significantly deficient.

Comment 19 We disagree with the lender’s assertion that the compensating factors listed
           were sufficient as they were either not valid or not verified. HUD Handbook
           4155.1, paragraph 4F(3)(b) does not list excellent credit as a valid
           compensating factor. Although the decrease in the borrower’s housing
           payment is a valid compensating factor, the previous housing payment on the
           uniform residential loan application was not verified by the lender. More
           importantly, even if verified, the decreased housing payment would not have
           been sufficient as a compensating factor to overcome a total fixed payment-to-
           income ratio of 55.18 percent, over 12 percent over the threshold.

Comment 20 We disagree that the lender complied with HUD requirements with respect to
           FHA case number 023-3302437. Therefore, the loan remains in the report as
           significantly deficient.

Comment 21 We disagree with the lender’s assertion that the error was harmless. A total
           debt-to-income ratio of 50 percent is significantly in excess of HUD’s
           threshold of 43 percent, requiring significant compensating factors. Exceeding
           the qualifying ratios, especially the total debt-to-income ratio, indicates a
           greater underwriting risk and must be analyzed carefully. HUD Handbook
           4155.1, paragraph 4F(1)(b) states that simply establishing that a loan transaction
           meets minimal standards does not necessarily constitute prudent underwriting. In
           this case, the loan doesn’t even meet minimal standards.

Comment 22 We disagree with the lender’s assertion that the compensating factors were
           sufficient as they were not valid. The lender’s response noted that there was a
           decreased housing payment; however, this is not accurate because the uniform
           residential loan application indicated a present housing payment of $857, lower
           than the proposed monthly payment for the new mortgage of $908.

              The second compensating factor listed in the lender’s response states that the
              borrower had a history of substantial overtime income with a probability of


                                             53
              continuance. This is not accurate as the written verification of employment
              indicates that the borrower only received $338 in overtime income for 2010,
              which covered approximately 8.5 months, $73 for 2009 and $0 for 2008. The
              verification also stated that overtime was not likely to continue. Therefore, this
              overtime income did not positively affect the borrower’s ability to pay the
              mortgage as stated in HUD Handbook 4155.1, paragraph 4F(3)(b).

              The third and fourth compensating factors listed in the lender’s response states
              that the loan-to-value ratio was only 87 percent and the borrower’s
              employment was highly stable. HUD Handbook 4155.1, paragraph 4F(3)(b)
              does not list these as valid compensating factors, therefore are not acceptable.

              The last compensating factor listed in the lender’s response states that the
              borrower was a minimal user of credit; however, this does not fully comply
              with the compensating factor stated in HUD Handbook 4155.1, paragraph
              4F(3)(b) that the borrower has demonstrated an ability to accumulate savings
              and has a conservative attitude toward using. The loan file does document a
              minimal use of credit but does not document that the borrower has exhibited an
              ability to accumulate savings. Even with a conservative attitude toward using
              credit, the borrower had less than $300 in her bank account.

Comment 23 The report remains unchanged regarding FHA loan 022-2217731 due to
           excessive qualifying ratios and a lack of valid compensating factors.

Comment 24 The issue of not obtaining a written explanation for credit inquiries is a
           technical issue on its own. However, it is presented in conjunction with the
           significant deficiencies to illustrate the lack of underwriting quality control and
           allow for a complete, factual presentation of each case. Therefore, the report
           remains unchanged; see also Comment 5.

Comment 25 We disagree with the lender’s response that there was no realistic way of
           knowing the borrower was married at the time the loan closed. Documents in
           the loan file, specifically a disclaimer deed and an instruction permit for the
           spouse, indicated that the borrower’s marital status was married, inconsistent
           with what was reported on the uniform residential loan application. Given the
           inconsistencies in the loan file, we belive an inquiry of the questioned
           documents would not have violated the Equal Credit Opportunity Act. The
           underwriter should have resolved this discrepancy and provided an explanation
           in the loan file. In addition, the OIG interviewed the borrower during the audit,
           who stated that the person assisting them with the purchase of the property was
           aware that they were married.

Comment 26 We disagree with the lender’s response that there was no realistic way of
           knowing the borrower was married at the time the loan closed. A document in
           the loan file, specifically a certificate of naturalization, showed that the
           borrower’s marital status was married, inconsistent with what was reported on



                                              54
              the uniform residential loan application. As stated above, given the
              inconsistencies in the loan file, we believe an inquiry of the questioned
              documents would not have violated the Equal Opportunity Act. The
              underwriter should have resolved this discrepancy and provided an explanation
              in the loan file.

Comment 27 We disagree with the lender’s response that they did include and consider all of
           the non-purchasing spouse’s debts. While the monthly payment of $166 for a
           third student loan reflected no account activity for the previous eight years and
           the amount listed for the outstanding balance was blank, the credit report did
           list a monthly payment amount. Therefore, the underwriter should have
           resolved this issue and included an explanation in the loan file why this
           liability was not included in the borrower’s qualifying ratios.

Comment 28 Although the qualifying ratios are still below FHA requirements after inclusion
           of the understated liabilities, the technical deficiency remains in the report to
           provide a complete, factual presentation of the loan and illustrate the lack of
           quality control exhibited when underwriting loans for mortgage insurance. See
           also Comments 5 and 24.

Comment 29 We agree with the lender’s response that the net rental loss was properly
           calculated using the applicable vacancy factor as stated in Homeownership
           Center Reference Guide, Chapter 2. This has been removed from the report;
           however, it does not affect the OIG’s recommendation for indemnification of
           this loan because, as stated in the report, the lender did not ensure that the
           borrower made the required downpayment.

Comment 30 The report explicitly details when a deficiency regarding the funds to close is
           used as a basis for indemnification. When the deficiency is technical, it is still
           appropriate to include in the report in order to provide a complete, factual
           presentation of each case. These technical deficiencies further illustrate the
           deviation from HUD rules and regulations and the lack of quality control. See
           also Comments 5 and 24.

Comment 31 We disagree with the lender’s response that all funds used to close the loan
           were properly verified. Fannie Mae Underwriting Findings, item 29, required
           the assets to be verified by a verification of deposit, the most recent statement
           showing the previous month’s balance, or the most recent 2 months’
           statements. Stating that the borrower took a $4,000 loan from their 401(k) plan
           and could have easily the saved the money needed to close with future earnings
           does not satisfy these requirements. However, the report will be modified to
           reflect that the lender properly verified $5,573 because the $1,000 in earnest
           money deposit was paid one month before closing.

Comment 32 We agree with the lender’s response that all funds used to close the loan were
           properly verified. However, the borrower did not make the required



                                             55
              downpayment of 3.5 percent and the lender did not adhere to HUD
              requirements in determining the borrower’s assets and overstated them by
              $7,981, as stated in the report. This loan was approved through the automated
              underwriting system and the borrower’s assets are considered in the mortgage
              evaluation.

Comment 33 We agree with the lender’s response that the retirement account funds were not
           used to close the loan. However, the lender did not adhere to HUD
           requirements in determining the borrower’s assets and overstated them by
           $4,051 as stated in the report. This loan was approved through the automated
           underwriting system and the borrower’s assets are considered in the mortgage
           evaluation. Additionally, the loan remains indemnifiable because the lender
           did not verify the borrower’s employment history for two full years.

Comment 34 We disagree with the lender’s response that all funds used to close the loan
           were properly verified. As stated in the report, Fannie Mae Underwriting
           Findings, item 30, required the assets to be verified by either a verification of
           deposit, the most recent statement showing the previous month’s balance, or
           the most recent 2 months’ statements. Stating that the borrower was paid a
           $462 bonus between the date of the verification of deposit and closing and
           could have easily saved $147 based on future earnings does not satisfy these
           requirements. Assumptions of future potential savings are not acceptable or
           adequate as verification.

Comment 35 We agree with the lender’s response that all funds used to close the loan were
           properly verified. However, the lender did not adhere to HUD requirements in
           determining the borrower’s assets and overstated them by $5,362 as stated in
           the report. This loan was approved through the automated underwriting system
           and the borrower’s assets are considered in the mortgage evaluation. The loan
           remains indemnifiable based on understated liabilities due to incorrectly
           calculating the borrower’s net rental loss, resulting in an excessive total fixed
           payment-to-income ratio of over 85 percent.

Comment 36 The report does not state the gift funds were improperly input into the
           automated underwriting system; however, the report has been changed to more
           clearly identify that the borrower’s assets were overstated because the checking
           account balance included the deposited gift but the gift was also listed
           separately. The lender should have subtracted the gift amount from the savings
           account balance. Even though all funds used to close the loan were properly
           verified the lender did not adhere to HUD requirements in determining the
           borrower’s assets and overstated them by $4,996 as stated in the report. This
           loan was approved through the automated underwriting system and the
           borrower’s assets are considered in the mortgage evaluation. The loan remains
           indemnifiable based on the lender’s inability to determine the borrower’s
           liabilities.




                                             56
Comment 37 We agree with the lender’s response that the borrower’s assets were not
           overstated. This has been removed from the report; however, it does not affect
           the OIG’s recommendation for indemnification of this loan because, as staed in
           the report, the lender did not determine the borrower’s liabilities and did not
           ensure that the borrower made the required downpayment.

Comment 38 We disagree with the lender’s response that the gift was not made by check to
           the borrower but rather by wire transfer to the closing agent. While the loan
           file does contain supporting documentation of a $4,500 wire transfer made on
           August 24, 2009, it also contains documentation supporting a $4,500 deposit
           into the borrower’s bank account on July 22, 2009. The gift letter was dated on
           July 22, 2009. In addition, the HUD-1 settlement statement showed the wire
           transfer to the borrower as a gift but also showed that gift funds were returned
           to the donor. The report remains unchanged as the lender did not obtain
           sufficient documentation.

Comment 39 We disagree with the lender’s response that no documentation was required for
           the car loan payoff. While it was not used to cover the funds required to close
           the loan, it was a gift to pay off a debt on behalf of the borrower. If the debt
           was not paid off with the gift from the borrower’s cousin then the liability
           would have been used in determining the borrower’s qualifying ratios. This
           liability was significant enough to negatively impact the total fixed payment-
           to-income ratio. The report has been modified to reflect that the borrower only
           received two gifts as noted in the lender’s response; however, the gift used to
           pay off the borrower’s debt remains a significant issue.

Comment 40 We reviewed the supporting documentation that was omitted from the loan file
           and agree that part of the gift was properly supported but determined that the
           remaining balance of the gift was not. The documentation provided in the
           exhibits to the response does properly support $6,245 of the $8,000 gift from
           the borrower’s brother-in-law; however, the borrower provides a statement in
           the exhibits that he received the remaining $1,755 in cash. Therefore, as noted
           in the report, a copy of the withdrawal document showing that the withdrawal
           was from the donor’s account and the borrower’s deposit slip and bank
           statement showing the deposit were required. These documents were not in the
           loan file nor were they provided in the exhibits. The loan file does document
           the borrower had the remaining $1,000 required to close the loan in his bank
           account. However, the loan file did not document when the gift of $1,755 was
           provided to the borrower. Therefore, this gift may have been included in the
           borrower’s bank account. The report has been modified to reflect that part of
           the $8,000 was properly supported.

              The second cashier’s check of $1,000 from the borrower’s brother-in-law to
              the closing agent represented a gift in excess of the original $8,000 gift.
              Therefore, another gift letter was required for this gift.




                                            57
Comment 41 The lender disagrees with the recommendation of any penalty in connection
           with the loan that contained significant underwriting deficiencies. The OIG
           believes the recommendations are appropriate based on the results of our audit.
           Therefore, we did not remove any of the recommendations. However, during
           the audit resolution process HUD will provide its proposed management
           decision to OIG, at which time it will advise whether it concurs with the
           recommendation or proposes alternative corrective action.

Comment 42 Contrary to the lender’s assertion, the report specifically stated that the lender
           did not perform due diligence when approving the questioned loans for
           mortgage insurance. We identified significant deficiencies that we believe
           allow for civil penalties. Nevertheless, as stated in Comment 41, HUD will
           advise OIG of its position during the audit resolution process.

Comment 43 The lender references a typical OIG audit report and states our report should be
           similar. Each audit is conducted and reported on its own merits. In this
           particular case, we identified a number of significant deficiencies, a serious
           lack of quality control, and lack of due diligence, that reached beyond simple
           errors and omissions. We believe enforcement actions and civil penalties are
           appropriate based on the facts presented.

Comment 44 The lender takes strong exception to the inclusion of the estimated losses for
           the 12 cited loans. As noted in their response, this amount reflects an estimate
           of the losses HUD could incur if the loans result in claims. The OIG included
           potential losses in the report as a remedy and to emphasize how
           indemnification of the questioned loans will reduce the risk of loss to the FHA
           insurance fund.

               The lender’s statement that the report acknowledges that, in eight of the
               questioned loans, the borrowers were current with their mortgage payments is
               not accurate. At the time of the report, seven of those loans were current with
               their mortgage payments. However, as of December 31, 2011, only five of
               those loans were current and of these, four had previously been delinquent
               (from 1 to 10 months).

Comment 45 We noted the lender’s strong opposition to our recommendations. However,
           the report and its associated recommendation remain unchanged. Our
           recommendations are addressed to HUD and are reviewed and evaluated
           during the audit resolution process. Our recommendations are not based on
           assumptions, but on calculations that we determined are appropriate to quantify
           the level of risk and the remedy to decrease that risk to the FHA insurance
           fund.

Comment 46 The lender objected to the OIG’s policy of making audit reports public before
           HUD makes a final determination on the recommendations. We acknowledge
           the lender’s objection; however, we strongly disagree with their categorization



                                              58
             of the process and the way it suggests the process works. Our report is factual
             and accurate based on the records provided by the lender and our audit work
             performed. To further ensure the results of the audit are factually correct, we
             provide the auditee and HUD the opportunity to review the discussion draft
             report and advise us of any inaccuracies. Only after this occurs, is the report
             publicly distributed. In the Highlights section of the report, the reader can see
             that we reported what we found and have made recommendations to HUD on
             the proposed corrective action. HUD management officials are responsible for
             initiating action to evaluate and resolve reported findings and
             recommendations after report issuance.

Comment 47 The lender requested the report to be amended to acknowledge that it
           anticipates exiting the forward mortgage origination business. The OIG has
           learned that MetLife Bank closed its forward home loan business on January
           10, 2012. Accordingly, the recommendation for finding 2 has been removed
           from the report.




                                            59
Appendix C

         LOAN DETAILS FOR SIGNIFICANT UNDERWRITING
                        DEFICIENCIES

The table below contains the actual, if known, and estimated losses to HUD corresponding to
the loans recommended for indemnification under finding 1.

 FHA loan                 Unpaid mortgage             Claim paid            Actual loss to   Estimated loss
 number                       balance                                          HUD              to HUD
                                                                                                (59%) 22
 022-2050283                     $262,506                                                        $154,879
 022-2217731                      116,535                                                          68,756
 022-3302437                      133,479                                                          78,753
 023-3312197                      150,164              $15,490 23                                  88,597
 023-3321334                      243,558                1,00023                                  143,699
 023-3380559                                             61,229                $61,229
 023-3485534                                             40,326                 40,326
 023-3515200                      124,089                                                          73,213
 023-3515994                      182,633                                                         107,753
 023-3551691                       86,813                                                          51,220
 023-3789597                      119,970                                                          70,782
 023-3948891                      182,112                                                         107,446
 023-4023605                       56,606                                                          33,398
 023-4362539                      200,472                                                         118,278
                               $1,858,937               $118,045              $101,555         $1,096,774




22
     Amounts were calculated based on 59 percent of the unpaid mortgage balances.
23
     Partial claim. The total of the partial claims paid is $16,490 ($15,490 + $1,000).


                                                          60
Appendix D

                                       CRITERIA
1. HUD Handbook 4060.1, REV-2, Paragraph 7-3G
   2. Frequency. Technology enables mortgagees to conduct effective Quality Control
   remotely. Annual visits are mandatory for offices meeting certain higher risk criteria such
   as high early default rates, new branches or new key personnel, sudden increases in
   volume, and past problems. Other sites must be reviewed to assure compliance with
   FHAs requirements at a frequency and in a manner determined appropriate by the
   mortgagee. The criteria used by the mortgagee to determine the frequency of on-site
   reviews must be in writing and available for review by HUD at the corporate office and
   any branch office that is not being reviewed annually.

2. HUD Handbook 4060.1, REV-2, Paragraph 7-6A
   Loans must be reviewed within 90 days from the end of the month in which the loan
   closed. This requirement is intended to ensure that problems left undetected prior to
   closing are identified as early after closing as possible.

3. HUD Handbook 4155.1, paragraph 2A(2)(c)
   (HUD Handbook 4155.1, REV-5, section 1-7)

   The borrower must make a down payment at least equal to 3.5 percent of the lesser of the
   appraised value of the property or the sales price.

4. HUD Handbook 4155.1, paragraph 4C(2)(c)
   (HUD Handbook 4155.1, REV-5, paragraph 2-3B)

   Lenders must determine the purpose of any recent debts as the indebtedness may have
   been incurred to obtain the required cash investment. A borrower must provide a
   satisfactory explanation for any significant debt that is shown on the credit report, but not
   listed on the loan application. Written explanation is required for all inquiries shown on
   the credit report for the last 90 days.

5. HUD Handbook 4155.1, paragraph 4A(5)(b)
   (HUD Handbook 4155.1, REV-5, paragraph 2-2D)

   Except for obligations specifically excluded by state law, the debts of non-purchasing
   spouses must be included in the borrower’s qualifying ratios, if the borrower resides in a
   community property state or the property being insured is located in a community property
   state.




                                              61
6. HUD Handbook 4155.1, paragraph 4A(5)(c)
   (HUD Handbook 4155.1, REV-5, paragraph 2-2D)
   The non-purchasing spouse’s credit history is not considered a reason to deny credit.
   However, the non-purchasing spouse’s credit report that complies with the requirements
   of HUD 4155.1 4.C.2 must be provided in order to determine the debt-to-income ratio.

7. HUD Handbook 4155.1, paragraph 4D(1)(b)
   (HUD Handbook 4155.1, REV-5, section 2-6)

   To be eligible for a mortgage, FHA does not require a minimum length of time that a
   borrower must have held a position of employment. However, the lender must verify the
   borrower’s employment for the most recent two full years, and the borrower must explain
   any gaps in employment that span one or more months and indicate if he/she was in
   school or the military for the recent two full years, providing evidence supporting this
   claim such as college transcripts or discharge papers.

   The TOTAL [Technology Open to All Lenders] Scorecard Accept recommendation does
   not require an explanation for gaps in employment of six months or less, during the most
   recent two years.

8. HUD Handbook 4155.1, paragraph 4D(4)(e)
   (HUD Handbook 4155.1, REV-5, paragraph 2-9C)

   When qualifying a [self employed] borrower for a mortgage loan, the lender must
   establish the borrower’s earnings trend from the previous two years using the borrower’s
   tax returns. If the borrower provides three years of tax returns, the lender may average the
   income over the three years.

9. HUD Handbook 4155.1, paragraph 4D(5)(a)
   (HUD Handbook 4155.1, REV-5, paragraph 2-9C)

   The amount shown on a [self employed] borrower’s IRS [Internal Revenue Service] Form
   1040 as adjusted gross income must either be increased or decreased based on the lender’s
   analysis of the individual tax return and any related tax schedules.

10. HUD Handbook 4155.1, paragraph 4E(4)(a)
    (HUD Handbook 4155.1, REV-5, paragraph 2-7M)

   Rent received for properties owned by the borrower is acceptable as long as the lender can
   document the stability of the rental income through a current lease, an agreement to lease,
   or a rental history over the previous 24 months that is free of unexplained gaps greater
   than three months (such gaps could be explained by student, seasonal, or military renters,
   or property rehabilitation).




                                              62
11. HUD Handbook 4155.1, paragraph 4E(4)(d)
    (HUD Handbook 4155.1, REV-5, paragraph 2-7M)
    Analysis of the following required documentation is necessary to verify all borrower
    rental income: IRS Form 1040 Schedule E, as described in HUD 4155.1 4.D.5.b, and
    current leases/rental agreements, as described in HUD 4155.1 4.E.4.f.

12. HUD Handbook 4155.1, paragraph 4E(4)(e)
    (HUD Handbook 4155.1, REV-5, paragraph 2-7M)

   The IRS Form 1040 Schedule E is required to verify all rental income. Depreciation
   shown on Schedule E may be added back to the net income or loss. Positive rental income
   is considered gross income for qualifying purposes, while negative income must be treated
   as a recurring liability.

13. HUD Handbook 4155.1, paragraph 4E(4)(f)
    (HUD Handbook 4155.1, REV-5, paragraph 2-7M)

   The borrower can provide a current signed lease or other rental agreement for a property
   that was acquired since the last income tax filing, and is not shown on Schedule E.

14. HUD Handbook 4155.1, paragraph 4F(2)(b)
    (HUD Handbook 4155.1, REV-5, paragraph 2-12A)

   The relationship of the mortgage payment to income is considered acceptable if the total
   mortgage payment does not exceed 31 percent of the gross effective income. A ratio
   exceeding 31 percent may be acceptable only if significant compensating factors, as
   discussed in HUD 4155.1 4.F.3, are documented and recorded on the mortgage credit
   analysis worksheet.

15. HUD Handbook 4155.1, paragraph 4F(2)(c)
    (HUD Handbook 4155.1, REV-5, paragraph 2-12B)

   The relationship of total obligations to income is considered acceptable if the total
   mortgage payment and all recurring charges do not exceed 43 percent of the gross
   effective income. A ratio exceeding 43 percent may be acceptable only if significant
   compensating factors, as discussed in HUD 4155.1 4.F.3, are documented and recorded on
   the mortgage credit analysis worksheet.

16. HUD Handbook 4155.1, paragraph 5B(3)(a)
    (HUD Handbook 4155.1, REV-5, paragraph 2-10K)

   Up to 60 percent of the value of assets such as IRAs [individual retirement accounts],
   thrift savings plans, 401(k) and Keogh account may be included in the underwriting
   analysis, unless the borrower provides conclusive evidence that a higher percentage may
   be withdrawn, after subtracting any Federal income tax and withdrawal penalties.




                                             63
   TOTAL Scorecard Accept or Reject recommendations require the lender to document the
   terms and conditions for withdrawal and/or borrowing, and that the borrower is eligible
   for these withdrawals.

17. HUD Handbook 4155.1, paragraph 5B(5)(b)
    (HUD Handbook 4155.1, REV-5, paragraph 2-10C)

   The lender must document the transfer of the gift funds from the donor to the borrower. If
   the gift funds are in the borrower’s account then obtain a copy of the withdrawal
   document showing that the withdrawal is from the donor’s account and the borrower’s
   deposit slip and bank statement showing the deposit.

18. HUD Handbook 4155.1, paragraph 5B(2)(b)
    (HUD Handbook 4155.1, REV-5, paragraph 2-10B)

   A VOD [verification of deposit], along with the most recent bank statement, may be used
   to verify savings and checking accounts. If there is a large increase in an account, or the
   account was recently opened, the lender must obtain from the borrower a credible
   explanation of the source of the funds.

   TOTAL Scorecard Accept and Refer recommendations require that the lender obtain an
   explanation and documentation for recent large deposits in excess of 2 percent of the
   property sale price and verify that any recent debts were not incurred to obtain part, or all,
   of the required cash investment on the property being purchased.




                                               64
Appendix E

     NARRATIVE LOAN SUMMARIES FOR SIGNIFICANT
             UNDERWRITING DEFICIENCIES
The following narratives provide the details for the significant underwriting deficiencies noted
in the table contained in finding 1.

1. FHA loan number: 022-2050283
   Loan status: Active
   Requesting indemnification: Yes
   Default status: First legal action to commence foreclosure

   We are seeking indemnification based on the revised total fixed payment-to-income ratio,
   which reflects the allowable qualifying income as calculated by OIG in accordance with
   HUD-FHA requirements. After recalculation, the total fixed payment-to-income ratio
   increased from 47.95 to 51.59 percent.

   Income
   The lender overstated the borrower’s monthly income by $547. The borrower was self-
   employed, requiring the lender to calculate the monthly income using the average from the
   previous 2 years by using the adjusted gross income from the tax return as stated in HUD
   Handbook 4155.1, REV-5, paragraph 2-9C. However, the lender instead used the net
   business profit from the tax return, which did not include the one-half of self-employment
   tax.

   Credit
   The loan file did not contain an explanation for the credit report inquiries that were within
   90 days of the completed credit report as required by HUD Handbook 4155.1, REV-5,
   paragraph 2-3B.

2. FHA loan number: 022-2217731
   Loan status: Active
   Requesting indemnification: Yes
   Default status: Ineligible for loss mitigation

   We are seeking indemnification based on the revised mortgage payment-to-income and
   total fixed payment-to-income ratios, which reflect qualifying income as calculated by
   OIG. After recalculation, the mortgage payment-to-income and total fixed payment-to-
   income ratios increased from 44.90 and 44.90 percent to 48.24 and 48.24 percent,
   respectively.

   Income
   The lender overstated the borrower’s monthly income by $218. The loan file did not
   contain an explanation or analysis of how the lender calculated the monthly income.


                                              65
       Since the borrower did not work a consistent number of hours per week, OIG calculated
       the monthly income using the year-to-date regular pay from the most recent pay stub
       divided by the number of months that it covered. 24

3. FHA loan number: 023-3302437
   Loan status: Active
   Requesting indemnification: Yes
   Default status: Reinstated by borrower without loss mitigation claim

       We are seeking indemnification based on the revised mortgage payment-to-income and
       total fixed payment-to-income ratios, which reflect the allowable qualifying income and
       proposed monthly mortgage payment as calculated by OIG in accordance with HUD-FHA
       requirements. After recalculation, the ratios increased from 29.38 and 50.38 percent to
       33.39 and 55.18 percent, respectively.

       Income
       The lender overstated the borrower’s monthly income by $136. The borrower was self-
       employed, requiring the lender to calculate the monthly income using the average from the
       previous 2 years by using the adjusted gross income from the tax return as stated in HUD
       Handbook 4155.1, REV-5, paragraph 2-9C. However, the lender instead used the net
       business profit from the tax return, which did not include the one-half of self-employment
       tax.

       Credit
       The loan file did not contain an explanation for the credit report inquiries that were within
       90 days of the completed credit report as required by HUD Handbook 4155.1, REV-5,
       paragraph 2-3B.

       Other
       The lender understated the borrower’s proposed monthly mortgage payment by $104
       because it listed the property taxes at only $104 on the automated underwriting system
       report. The initial escrow account disclosure statement in the loan file was dated before
       the loan closed and showed that the property taxes were $2,502 per year (or $208 per
       month).

4. FHA loan number: 023-3312197
   Loan status: Active
   Requesting indemnification: Yes
   Default status: Reinstated by borrower without loss mitigation claim

       We are seeking indemnification based on the lender’s not properly verifying the required
       assets available for closing.




24
     $12,921 divided by 7.16 months equals $1,805 per month.


                                                       66
   Credit
   The loan file did not contain an explanation for the credit report inquiries that were within
   90 days of the completed credit report as required by HUD Handbook 4155.1, REV-5,
   paragraph 2-3B.

   Assets
   The lender overstated the borrower’s assets by $6,697 because a retirement account that
   was used as a qualifying asset did not include the terms and conditions along with
   evidence that the account allowed for withdrawals and that the borrower qualified for
   withdrawal or borrowing as required by the Fannie Mae Underwriting Findings, item 32.
   The automated underwriting system report showed that $6,514 was required for closing;
   however, the lender only properly verified $5,573. Therefore, the required assets for
   closing were not properly verified.

5. FHA loan number: 023-3321334
   Loan status: Active
   Requesting indemnification: Yes
   Default status: Delinquent

   We are seeking indemnification based on the lender’s not properly verifying that the
   borrower had the required funds available for closing.

   Credit
   The lender understated the borrower’s assets by $141 because it improperly listed the
   nonpurchasing spouse’s monthly debt as $264 on the automated underwriting system
   report. The credit report in the loan file showed that the monthly debts totaled $405.
   HUD Handbook 4155.1, REV-5, section 2-2D requires the debts of the nonpurchasing
   spouse to be included in the borrower’s qualifying ratios if the borrower resides in a
   community property State or the property to be insured is located in a community property
   State such as Arizona.

   Assets
   The lender overstated the borrower’s assets by $253 because it improperly verified the
   borrower’s checking account balance. The lender used a printed page from the borrower’s
   checking account that was dated March 19, 2009; however, the printed page did not show
   the previous month’s balance and did not provide all of the transactions for the month,
   listing only one transaction. The Fannie Mae Underwriting Findings, item 30, requires the
   assets to be verified by either a verification of deposit, the most recent statement showing
   the previous month’s balance, or the most recent 2 months’ statements. Therefore, the
   printed page from the borrower’s checking account was not sufficient to verify the
   borrower’s assets. OIG determined that the borrower’s assets were $5,728 as shown on
   the verification of deposit in the loan file that was dated March 5, 2009. As a result, the
   lender did not verify that the borrower had the required funds available for closing (the
   automated underwriting system report stated $5,869 and the lender only properly verified
   $5,728). In addition, the loan file contained another printed page from the borrower’s




                                              67
   checking account that was dated March 23, 2009, and showed that the borrower did not
   have the required assets available for closing.

6. FHA loan number: 023-3380559
   Loan status: Claim
   Requesting indemnification: Yes
   Default status: Preforeclosure sale completed

   We are seeking indemnification based on the revised total fixed payment-to-income ratio,
   which reflects the allowable qualifying liabilities as calculated by OIG in accordance with
   HUD-FHA requirements. After recalculation, the ratio increased from 50.53 to 85.46
   percent.

   Credit
   The lender calculated the net rental loss on the uniform residential loan application for the
   borrower’s rental property but did not include it in the automated underwriting system as a
   recurring debt. In addition, the rental agreement was not valid because it was not signed
   by any of the parties involved as required. HUD Handbook 4155.1, REV-5, paragraph 2-
   7M, requires a current signed lease or other rental agreement if the property was acquired
   since the last income tax filing and is not shown on Schedule E. Additionally, the check
   for the first month’s rent and security deposit was questionable because it predated the
   rental agreement by almost 1 year (the check was dated May 18, 2008, and the rental
   agreement was for April 27, 2009, to May 30, 2010). This check also predated the
   borrower’s move to Arizona by more than 2 months.

   Assets
   The lender overstated the borrower’s assets by $5,362 because the lender improperly used
   an amount from one of the borrower’s bank accounts two times. The automated
   underwriting system report and the borrower’s bank statements showed that the lender
   used the previous month’s balance for a savings account that was already listed on the
   report using the current month’s balance.

7. FHA loan number: 023-3485534
   Loan status: Claim
   Requesting indemnification: Yes
   Default status: Preforeclosure sale completed

   We are seeking indemnification based on the lender’not properly verifying the required
   assets available for closing.

   Credit
   The loan file did not contain an explanation for the credit report inquiries that were within
   90 days of the completed credit report as required by HUD Handbook 4155.1, paragraph
   4C(2)(c).




                                              68
   Assets
   The lender overstated the borrower’s assets by $7,743 because a retirement account that
   was used as a qualifying asset did not include the terms and conditions for withdrawal or
   borrowing and that the borrower was eligible for withdrawals as required by HUD
   Handbook 4155.1, paragraph 5B(3)(a). The automated underwriting system report
   showed that $3,920 was required for closing; however, the lender only properly verified
   $2,381. Therefore, the required assets for closing were not properly verified.

8. FHA loan number: 023-3515200
   Loan status: Active
   Requesting indemnification: Yes
   Default status: Ineligible for loss mitigation

   We are seeking indemnification based on the lender not ensuring that the borrower made
   the required downpayment.

   Credit
   The loan file did not contain an explanation for the credit report inquiries that were within
   90 days of the completed credit report as required by HUD Handbook 4155.1, paragraph
   4C(2)(c).

   Assets
   The borrower did not make the required downpayment of at least 3.5 percent of the sales
   price as required by HUD Handbook 4155.1, paragraph 2A(2)(c). The required
   downpayment was $4,546.50; however, the borrower made a downpayment of only
   $4,221.50.

   In addition, the lender overstated the borrower’s assets by $7,981 because a retirement
   account that was used as a qualifying asset did not include the terms and conditions for
   withdrawal or borrowing and that the borrower was eligible for withdrawals as required by
   HUD Handbook 4155.1, paragraph 5B(3)(a). As a result, only $2,029 was properly
   verified by the lender, and the borrower only had 1 month of reserves instead of 9.




                                              69
9. FHA loan number: 023-3515994
   Loan status: Active
   Requesting indemnification: Yes
   Default status: Reinstated by borrower without loss mitigation claim

       We are seeking indemnification based on two factors: (1) the revised mortgage payment-
       to-income and total fixed payment-to-income ratios, which reflect the allowable qualifying
       income as calculated by OIG in accordance with HUD-FHA requirements, and (2) the
       lender’s not properly documenting the transfer of gift funds that were used as the
       borrower’s cash investment in the property. After recalculation, the mortgage payment-to-
       income and total fixed payment-to-income ratios increased from 42.88 and 47.88 percent
       to 45.72 and 51.05 percent, respectively.

       Income
       The lender overstated the monthly income for the borrower’s two jobs by a total of $207.
       The lender overstated the monthly income for the first job by $70 because it improperly
       calculated the monthly income using an average of the previous 24 months. OIG
       determined that this calculation was not appropriate because the average monthly income
       had decreased each year. OIG calculated the borrower’s monthly income using the year-
       to-date pay from the most recent pay stub in the loan file, which covered approximately 5
       months. 25

       The lender overstated the monthly income for the second job by $137. The borrower was
       considered self-employed for this job, requiring the lender to calculate the monthly
       income using the average from the previous 2 years by using the adjusted gross income
       from the tax return as stated in HUD Handbook 4155.1, paragraph 4D(5)(a). However,
       the lender instead used the net business profit from the tax return, which did not include
       the one-half of self-employment tax.

       In addition, the lender should have questioned the borrower’s self-employment income as
       OIG noted several issues. For example, the amounts from the Internal Revenue Service
       Form W-2 for the first job did not reconcile with the tax returns for 2007 and 2008. Also,
       the 2007 tax return only listed one dependent; however, the earned income credit
       worksheet for 2007 and the 2008 tax return both listed two dependents. Although it was
       not required, the lender should have performed a verification of employment because the
       borrower received an Internal Revenue Service Form 1099-MISC.

       Credit
       The loan file did not contain an explanation for the credit report inquiries that were within
       90 days of the completed credit report as required by HUD Handbook 4155.1, paragraph
       4C(2)(c).




25
     $6,482 divided by 4.97 months equals $1,304.


                                                    70
   Assets
   The lender did not obtain the required documentation supporting the transfer of a $4,500
   gift from the borrower’s relative. Specifically, the lender did not obtain the deposit slip
   and the withdrawal document from the donor. HUD Handbook 4155.1, paragraph
   5B(5)(b), requires the lender to obtain a copy of the withdrawal document showing that
   the withdrawal is from the donor’s account and the borrower’s deposit slip and bank
   statement showing the deposit. The lender did obtain a bank statement from the donor;
   however, the statement covered the period May 15 to June 12, 2009, and the gift was
   made on July 22, 2009. Therefore, the bank statement did not show the withdrawal from
   the donor’s account. Without the gift, the borrower did not have sufficient funds to close.

10. FHA loan number: 023-3551691
    Loan status: Active
    Requesting indemnification: Yes
    Default status: Repayment

   We are seeking indemnification based on the lender’s not verifying the borrower’s
   employment history for 2 years. Without the borrower’s income included in the
   qualifying ratios, the total fixed payment-to-income ratio would have increased from
   30.27 to 62.03 percent.

   Income
   The lender did not verify the employment history for the borrower for 2 full years as
   required by HUD Handbook 4155.1, paragraph 4D(1)(b). A verbal verification of
   employment, dated June 16, 2009, from the borrower’s current employer showed that the
   borrower had been employed with the company since November 21, 2008. Also, the
   lender obtained the 2008 W-2s for the borrower’s current and former employers.
   Therefore, at most, the lender only verified approximately 1.5 years of employment for the
   borrower.

   Credit
   The loan file did not contain an explanation for the credit report inquiries that were within
   90 days of the completed credit report as required by HUD Handbook 4155.1, paragraph
   4C(2)(c).

   Assets
   The lender overstated the borrower’s assets by $4,051 because two retirement accounts
   that were used as a qualifying asset did not include the terms and conditions for
   withdrawal or borrowing and that the borrower was eligible for withdrawals as required by
   HUD Handbook 4155.1, paragraph 5B(3)(a).




                                              71
11. FHA loan number: 023-3789597
    Loan status: Active
    Requesting indemnification: Yes
    Default status: Reinstated by borrower without loss mitigation claim

   We are seeking indemnification based on the lender’s inability to determine the
   borrower’s liabilities.

   Credit
   The lender did not obtain a credit report for the borrower’s nonpurchasing spouse as
   required by HUD Handbook 4155.1, paragraph 4A(5)(b), which requires the debts of
   nonpurchasing spouses to be included in the borrower’s qualifying ratios if the borrower
   resides in a community property State or the property being insured is located in a
   community property State such as Arizona. HUD Handbook 4155.1, paragraph 4A(5)(c),
   further states that the nonpurchasing spouse’s credit report that complies with HUD’s
   requirements must be provided to determine the debt-to-income ratio. Based on the
   documentation in the loan file, specifically the disclaimer deed, dated before the loan
   closed, and a copy of an instruction permit (for the spouse), it appeared that the borrower
   was married. In an interview with the borrower, he informed OIG that he was married
   when he was approved for the loan. Without obtaining the nonpurchasing spouse’s credit
   report or establishing alternative credit, the lender was unable to determine the debts of the
   nonpurchasing spouse, which were required to be included in the borrower’s qualifying
   ratios.

   Assets
   The lender overstated the borrower’s assets by $4,996 because the $3,000 gift that the
   borrower received was listed as not deposited on the automated underwriting system
   report; however, the documentation in the loan file showed that the gift was deposited in
   the borrower’s savings account. The lender should have subtracted the amount of the gift
   from the borrower’s savings account. In addition, the lender incorrectly listed the
   borrower’s checking account balance as $6,000, but the documentation in the loan filed
   showed that the balance was only $4,004.

12. FHA loan number: 023-3948891
    Loan status: Active
    Requesting indemnification: Yes
    Default status: Reinstated by borrower without loss mitigation claim

   We are seeking indemnification based on two factors: (1) the lender’s inability to
   determine the borrower’s liabilities and (2) the lender’s not ensuring that the borrower
   made the required downpayment.

   Credit
   The lender did not obtain a credit report for the borrower’s nonpurchasing spouse as
   required by HUD Handbook 4155.1, paragraph 4A(5)(b), which requires the debts of
   nonpurchasing spouses to be included in the borrower’s qualifying ratios if the borrower



                                              72
       resides in a community property State or the property being insured is located in a
       community property State such as Arizona. HUD Handbook 4155.1, paragraph 4A(5)(c),
       further states that the nonpurchasing spouse’s credit report that complies with HUD’s
       requirements must be provided to determine the debt-to-income ratio. Based on the
       documentation in the loan file, specifically the borrower’s certificate of naturalization, it
       appeared that the borrower was married. In an interview with the borrower, she informed
       OIG that she was married when she was approved for the loan. Without obtaining the
       nonpurchasing spouse’s credit report or establishing alternative credit, the lender was
       unable to determine the debts of the nonpurchasing spouse, which were required to be
       included in the borrower’s qualifying ratios.

       Assets
       The borrower did not make the required downpayment of at least 3.5 percent of the sales
       price as required by HUD Handbook 4155.1, paragraph 2A(2)(c). The required
       downpayment was $6,507; however, the borrower made a downpayment of only $6,164.


13. FHA loan number: 023-4023605
    Loan status: Active
    Requesting indemnification: Yes
    Default status: N/A

       We are seeking indemnification based on the revised total fixed payment-to-income ratio,
       which reflects the allowable qualifying income as calculated by OIG in accordance with
       HUD-FHA requirements. After recalculation, the ratio increased from 45.75 to 48.94
       percent.

       Income
       The lender overstated the monthly income for the borrower’s two jobs by a total of $146.
       The lender overstated the monthly income for the first job by $101 because it improperly
       calculated the monthly income using an average of the previous 24 months. OIG
       determined that this method was not appropriate because the average monthly income was
       significantly different each year. OIG calculated the borrower’s monthly income using the
       year-to-date pay from the most recent pay stub in the loan file divided by the number of
       months it covered. 26

       The lender overstated the monthly income for the second job by $45. The borrower was
       self-employed for this job, requiring the lender to calculate the monthly income using the
       average from the previous 2 years by using the adjusted gross income from the tax return
       as stated in HUD Handbook 4155.1, paragraph 4D(5)(a). However, the lender instead
       used the net business profit from the tax return, which did not include the one-half of self-
       employment tax.

14. FHA loan number: 023-4362539
    Loan status: Active
26
     $2,134 divided by 3.13 months equals $682 per month.


                                                       73
Requesting indemnification: Yes
Default status: Reinstated by borrower without loss mitigation claim

We are seeking indemnification based on the lender’s not properly documenting the
transfer of gift funds that were used as the borrower’s cash investment in the property.

Credit
The loan file did not contain an explanation for the credit report inquiries that were within
90 days of the completed credit report as required by HUD Handbook 4155.1, paragraph
4C(2)(c).

Assets
The lender did not obtain the required documentation supporting the transfer of two gifts
totaling $13,743. HUD Handbook 4155.1, paragraph 5B(5)(b), requires the lender to
obtain a copy of the withdrawal document showing that the withdrawal is from the
donor’s account and the borrower’s deposit slip and bank statement showing the deposit.
For the first gift, the donor paid $6,425 directly to the closing agent and also provided
$1,755 to the borrower. The amount paid to the borrower was not properly documented
because the lender did not obtain the deposit slip and cancelled check or other withdrawal
document from the donor. The lender obtained a bank statement from the donor;
however, the it did not show the withdrawal of the gift. Without this gift, the borrower did
not have sufficient funds to close.

For the second gift, the donor made a payment to Toyota Financial Services to help pay
off the balance for an auto loan. The lender obtained a copy of the check to Toyota
Financial Services; however, it was not a cancelled check, and the lender did not obtain an
updated account statement showing the new balance. Without this gift, the liability would
have been used in determining the borrower’s qualifying ratios and it was significant
enough to negatively impact them..




                                           74
